HHS/OIG-Audit--"Cost to the Government for Providing Medical Malpractice Coverage to Community and Migrant Health Centers, (A-04-95-05018)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Cost to the Government for Providing Medical Malpractice Coverage to Community and Migrant Health Centers," (A-04-95-05018)
March 25, 1996
Complete
Text of Report is available in PDF format (878 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Currently, the Federal Government provides unlimited medical malpractice liability insurance coverage to Community and
Migrant Health Centers (C/MHC). We analyzed the cost for providing this unlimited coverage for a 3-year period and estimate
that significant savings would result (about $30.6 million over 3 years) if the Federal Government established a $1 million
per claim limit on such coverage. We recommended that the Health Resources and Services Administration (HRSA) consider
seeking a legislative change to limit malpractice settlements or judgements involving C/MHCs to $1 million. The HRSA concurred
with our recommendation and agreed to develop a legislative proposal to the Federal Tort Claims Act to include this limitation.